<html>
<title> - SAFEGUARDING AMERICAN AGRICULTURE IN A GLOBALIZED WORLD</title>
<body><pre>[Senate Hearing 115-603]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-603

                   SAFEGUARDING AMERICAN AGRICULTURE
                         IN A GLOBALIZED WORLD

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION


                               __________

                           DECEMBER 13, 2017

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry
           
           
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]          


       Available via the World Wide Web: http://www.govinfo.gov/


                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
32-792 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1d7a6d725d7e686e697578716d337e727033">[email&#160;protected]</a>              



           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                     PAT ROBERTS, Kansas, Chairman

THAD COCHRAN, Mississippi            DEBBIE STABENOW, Michigan
MITCH McCONNELL, Kentucky            PATRICK J. LEAHY, Vermont
JOHN BOOZMAN, Arkansas               SHERROD BROWN, Ohio
JOHN HOEVEN, North Dakota            AMY KLOBUCHAR, Minnesota
JONI ERNST, Iowa                     MICHAEL BENNET, Colorado
CHARLES GRASSLEY, Iowa               KIRSTEN GILLIBRAND, New York
JOHN THUNE, South Dakota             JOE DONNELLY, Indiana
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
DAVID PERDUE, Georgia                ROBERT P. CASEY, Jr., Pennsylvania
LUTHER STRANGE, Alabama              CHRIS VAN HOLLEN, Maryland

             James A. Glueck, Jr., Majority Staff Director

                DaNita M. Murray, Majority Chief Counsel

                    Jessica L. Williams, Chief Clerk

               Joseph A. Shultz, Minority Staff Director

               Mary Beth Schultz, Minority Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Safeguarding American Agriculture in a Globalized World..........     1

                              ----------                              

                      Wednesday, December 13, 2017
                    STATEMENTS PRESENTED BY SENATORS

Roberts, Hon. Pat, U.S. Senator from the State of Kansas, 
  Chairman, Committee on Agriculture, Nutrition, and Forestry....     1
Stabenow, Hon. Debbie, U.S. Senator from the State of Michigan...     2

                               Witnesses

Lieberman, Hon. Joseph I., Co-Chair, Blue Ribbon Study Panel on 
  Biodefense, Washington, DC.....................................     5
Myers, Gen. Richard B., President, Kansas State University, 
  Manhattan, Kansas..............................................     9
Hammerschmidt, Raymond, Ph.D., Professor, Department of Plant, 
  Soil, and Microbial Sciences, Michigan State University, East 
  Lansing, Michigan..............................................    13
Meckes, R.D., D.V.M., State Veterinarian, North Carolina 
  Department of Agriculture and Consumer Services, Raleigh, North 
  Carolina.......................................................    16
                              
                              ----------                              

                                APPENDIX

Prepared Statements:
    Hammerschmidt, Raymond.......................................    32
    Lieberman, Hon. Joseph I.....................................    41
    Meckes, R.D..................................................    47
    Myers, Gen. Richard B........................................    59
Document(s) Submitted for the Record:
Roberts, Hon. Pat:
    ``Defense of Animal Agriculture'', Blue Ribbon Study Panel...    72
Stabenow, Hon. Debbie:
    Prepared Statement Submitted for the Record from Hon. Claire 
      McCaskill..................................................   134
Question and Answer:
Hammerschmidt, Raymond:
    Written response to questions from Hon. Pat Roberts..........   136
    Written response to questions from Hon. Debbie Stabenow......   138
Lieberman, Hon. Joseph I:
    Written response to questions from Hon. Pat Roberts..........   144
    Written response to questions from Hon. Debbie Stabenow......   146
    Written response to questions from Hon. Amy Klobuchar........   147
Meckes, R.D.:
    Written response to questions from Hon. Pat Roberts..........   149
    Written response to questions from Hon. Debbie Stabenow......   155
    Written response to questions from Hon. Amy Klobuchar........   156
Myers, Gen. Richard B.:
    Written response to questions from Hon. Pat Roberts..........   158


 
                   SAFEGUARDING AMERICAN AGRICULTURE
                         IN A GLOBALIZED WORLD

                              ----------                              


                      Wednesday, December 13, 2017

                              United States Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                     Washington, DC
    The Committee met, pursuant to notice, at 9:35 a.m., in 
328A, Russell Senate Office Building, Hon. Pat Roberts, 
Chairman of the Committee, presiding.
    Present: Senators Roberts, Boozman, Ernst, Grassley, 
Daines, Stabenow, Brown, Bennet, Gillibrand, Donnelly, 
Heitkamp, Casey, and Van Hollen.

 STATEMENT OF HON. PAT ROBERTS, U.S. SENATOR FROM THE STATE OF 
KANSAS, CHAIRMAN, U.S. COMMITTEE ON AGRICULTURE, NUTRITION, AND 
                            FORESTRY

    Chairman Roberts. Good morning. I call this meeting of the 
Senate Committee on Agriculture, Nutrition, and Forestry to 
order.
    I welcome my colleagues and the witnesses before us today 
as we hear about an issue I have long felt is of the utmost 
importance not only to farmers, ranchers, and the agriculture 
value chain, but also to consumers, the American economy, and 
the safety of our country.
    Agriculture security is a broad-reaching issue. It involves 
many Government agencies beyond the Department of Agriculture. 
In 1999, as Chairman of the newly formed Emerging Threats 
Subcommittee of the Senate Armed Services Committee, I became 
aware of the threat our Nation faced against intentionally 
introduced pathogens to be weaponized and aimed at destroying 
plant and animal populations.
    I was invited to Obelinsk, one of Russia's secret cities, 
back when we had access to secret cities under the Nunn-Lugar 
Program, where I saw warehouses of anthrax, foot-and-mouth, 
Newcastle disease, and African swine fever. Over the next 
several years, with a great deal of leadership from then K-
State president, Dr. Jon Wefald, the National Bio and Agro-
Defense Facility, or NBAF, began to become a reality. This 
facility in Manhattan, Kansas, will be a critical part of 
keeping U.S. agriculture, our food supply, the economy, and, 
most importantly, our people safe.
    Biological threats, whether naturally occurring like the 
avian influenza outbreak of 2015 or intentionally introduced, 
could pose great harm to our food supply and the economy. The 
2015 avian influenza outbreak was unprecedented, and while the 
USDA managed through the situation as well as can be expected, 
it illuminated just how vulnerable the agriculture sector is to 
such an event and it has made everyone involved begin to think 
about ways in which we can improve. Whether that be 
communication or coordination or preparedness or response, 
there is always room to gather feedback, reassess, and consider 
if our current approach is the best approach. Further, today's 
hearing is an opportunity to take stock of where we have come 
since the early 2000s when the issue of agriculture security 
was first visited and discuss where we need to go from here.
    The Agriculture Committee last held a hearing on this 
subject over a decade ago, but since that time, the 
significance of this issue has only grown. Today we will commit 
to the record updated information regarding agriculture 
security. We will begin to examine any needed changes in this 
arena and continue to work on these evolving challenges.
    There are several key questions for us to explore: What 
does risk management look like in this sector? Where are 
resources most appropriately directed? How should a multi-
jurisdictional system best function?
    Before us today is an esteemed panel of experts and public 
servants who have dedicated much of their careers to protecting 
agriculture and the country from biological threats. In 
October, the Blue Ribbon Study Panel on Biodefense released a 
bipartisan report, ``Defense of Animal Agriculture,'' which 
assesses many of the issues we will hear about today. I ask 
unanimous consent to enter that report into the record. Without 
objection.
    [The report can be found on page 72 in the appendix.]
    Chairman Roberts. I am very much looking forward to our 
witnesses' testimony and the discussion today, and I now 
recognize my colleague, Senator Stabenow, for any opening 
remarks that she may have.

STATEMENT OF HON. DEBBIE STABENOW, U.S. SENATOR FROM THE STATE 
                          OF MICHIGAN

    Senator Stabenow. Well, thank you very much, Mr. Chairman, 
and we are so pleased to have everyone with us today, including 
our former Senate colleague, Senator Lieberman. It is always 
wonderful to see you.
    Before my comments, Mr. Chairman, at the request of Senator 
McCaskill, I ask that her statement supporting these issues be 
put in the record. I know you are working with her on these 
important issues, and she wanted it to be a part of the record 
today.
    Chairman Roberts. Without objection.
    Senator Stabenow. Thank you very much.
    [The prepared statement of Senator McCaskill can be found 
on page 134 in the appendix.]
    Senator Stabenow. I know, Mr. Chairman, you have long been 
a champion for a strong agrodefense system, and we are all 
grateful for your vigilance and for the hearing today.
    I have always said that food security is national security. 
Everyone in this room knows just how important food and 
agriculture are to the well-being of our Nation. We certainly 
understand that in Michigan, where agriculture is our second 
largest industry, supporting one of every four jobs. I am so 
pleased that we have Dr. Hammerschmidt with us today speaking 
on behalf of these issues from Michigan and Michigan State.
    Threats to our agriculture industry would not only decimate 
our economy, but also change, frankly, our way of life. Our 
country is blessed to have a rich and diverse agriculture 
sector. However, it also means that agriculture faces a 
multitude of threats, both accidental and intentional. We 
cannot allow our food system to be weaponized against us, which 
is why I am glad, Mr. Chairman, that you have been working on 
these issues in a bipartisan manner.
    I would like to also recognize again the important work 
that you are doing with Senator McCaskill, who serves as the 
Ranking Member of the Homeland Security Committee. Yet some of 
the gravest threats to our food system can occur without 
malicious intent.
    In 2015, we witnessed one of the worst outbreaks of animal 
disease in our history. Avian influenza devastated poultry 
farmers across the country, claiming nearly 50 million birds 
and increasing egg prices for consumers. While our producers 
experienced unimaginable losses during the crisis, USDA and 
scientists across the country responded quickly to put a stop 
to the damage. Now we are more prepared than ever for the next 
outbreak.
    In Michigan, we have experienced similar scares in our 
fruit and vegetable industry. Michigan's $72 million cherry 
industry was almost wiped out by an insect smaller than a dime. 
An exotic pest called the spotted wing drosophila has become a 
cherry grower's worst nightmare. Yet thanks to rapid response 
research investments, scientists at universities like Michigan 
State University are developing tools and techniques to keep 
this destructive pest at bay.
    We need preparation, coordination, and research so we can 
protect our farms and crops from not only pests and disease but 
from the emerging threats of climate change. From hurricanes 
and floods to wildfires and droughts, we have seen how extreme 
weather can cause mass devastation to agriculture in the blink 
of an eye.
    Earlier this year, the GAO released a report that estimated 
climate change would result in crop losses that could cost up 
to $53 billion a year by the end of the century. This would 
also have grave consequences for food security in the global 
fight against hunger. It is time for us to acknowledge that the 
changing climate is a contributing factor to the unprecedented 
natural disasters that we are seeing. It is time for us to take 
action together to curb the damage that has already been done 
and will be done on agriculture.
    That is why we need real resources to detect threats and 
pests to keep our food and farms safe--in addition to 
meaningful risk management tools like crop insurance, which I 
know the Chairman knows a little bit about.
    Mr. Chairman, in the last farm bill, you and I worked 
together to create the Foundation for Food and Agriculture 
Research, to match public investments with private funds for 
innovative agricultural research. As a result, the world-class 
researchers at both Michigan State and K-State are 
participating in foundation-funded projects to address emergent 
threats to agriculture. This is an example of a practical 
investment we need to continue and to strengthen in the next 
farm bill if we want to keep our food and our farms safe.
    As this Committee considers the 2018 farm bill in the near 
future, I look forward to working together to keep our 
commitments to protect our farmers and our food system.
    Thank you, Mr. Chairman.
    Chairman Roberts. I thank the Senator.
    We want to issue a welcome to our panel of witnesses before 
the Committee this morning.
    First, to my left and everybody else in the audience's 
right, the distinguished Senator Joe Lieberman, who served in 
the United States Senate representing the State of Connecticut 
for 24 years. During his time in the Senate, he was the 
Chairman of the Homeland Security and Governmental Affairs 
Committee where he introduced legislation to create the 
Department of Homeland Security.
    Senator Lieberman is now senior counsel at the law firm of 
Kasowitz, Benson & Torres in New York. He currently serves as 
co-chair of the Blue Ribbon Study Panel on Biodefense, along 
with our former Secretary of Homeland Security Tom Ridge.
    Now, Joe, welcome back to the Senate, and I look forward to 
your testimony. The reason I paused is that the Senator and I 
had a rather unusual sense of humor that sort of fitted 
together.
    Senator Lieberman. Yes.
    Chairman Roberts. Which we truly enjoy, and so we are going 
to look forward to your testimony, but let me get on with the 
rest of the ----
    Senator Lieberman. Well, if I may, I do not want to 
interrupt, but I just want to say, ``Good morning, Mr. Benny.''
    Chairman Roberts. ``Now, Joe, cut that out.''
    [Laughter.]
    Chairman Roberts. How many times did we say that on the 
subway? About a hundred, I think.
    Our next witness is General Richard Myers or, as he is 
known at Kansas State University, ``Mr. President.'' General 
Myers, always nice to know a president you can get along with. 
Mr. President or, pardon me, General Myers is a native son of 
Kansas--you might want to strike that.
    [Laughter.]
    Chairman Roberts.--born in Merriam and a graduate of Kansas 
State with a degree in mechanical engineering. He served in the 
United States Air Force beginning in K-State's ROTC program and 
retiring as a four-star general. When General Myers was the 
15th Chairman of the Joint Chiefs of Staff between 2001 and 
2005, I had the privilege of working very closely with him in 
my capacity as Chairman of the Senate Intelligence Committee. 
He is indeed a great friend and an expert on the matters we are 
discussing today. I am so proud to welcome General Myers and 
look forward to hearing his testimony.
    I now turn to Senator Stabenow to introduce our next 
distinguished witness.
    Senator Stabenow. Thank you very much, Mr. Chairman, and I, 
too, want to welcome General Myers. It was great to be at K-
State with you and Senator Roberts. I was wearing purple in 
Kansas, and when Senator Roberts came to Michigan State, he was 
wearing green. So that is a good thing.
    General Myers. Well, Senator Stabenow, we appreciated 
having you there. Thanks for making the effort to be there.
    Senator Stabenow. Absolutely. I am very pleased to 
introduce Dr. Raymond Hammerschmidt, a plant pathology 
professor at Michigan State University's Department of Plant, 
Soil, and Microbial Sciences. Dr. Hammerschmidt serves as 
director of the North Central Plant Diagnostic Network and 
faculty coordinator of MSU Diagnostic Services. His research 
and professional activities have generated over 200 
publications, including a U.S. patent for a method of 
protecting plants from a variety of pathogens. Dr. 
Hammerschmidt is a native of Illinois. He received his 
Bachelor's and Master's in Science from Purdue University and 
his Ph.D. from the University of Kentucky.
    We are so appreciative that you are here, and it is always 
wonderful for me to welcome a fellow Spartan.
    Mr. Hammerschmidt. Thank you, Senator. Pleased to be here.
    Chairman Roberts. It is nice to have you, Doctor.
    Our next witness is Dr. Douglas Meckes, who is the State 
veterinarian in North Carolina, serving as the lead subject 
matter expert on all animal health issues since 2014. Prior to 
his time as State veterinarian, Dr. Meckes was the Chief of the 
Food, Agriculture, and Veterinary Defense Branch at the 
Department of Homeland Security, where he oversaw 
implementation of Homeland Security Presidential Directive-9. 
Dr. Meckes began his career as a veterinarian in Apex, North 
Carolina, and worked for the American Veterinary Medical 
Association as a congressional fellow for Senator Chuck Hagel 
and then as the Assistant Director of Government Relations. Dr. 
Meckes, we welcome you and we look forward to your testimony.
    We will start with Senator Lieberman.

 STATEMENT OF HON. JOSEPH I. LIEBERMAN, CO-CHAIR, BLUE RIBBON 
           STUDY PANEL ON BIODEFENSE, WASHINGTON, DC

    Senator Lieberman. Thanks very much, Mr. Chairman, Ranking 
Member Stabenow, and members of the Committee. It is a great 
pleasure to be back in the Senate. It is a great pleasure to be 
before this Committee. I thank you for focusing on this 
subject, and I thank you for inviting me to be here on behalf 
of the bipartisan Blue Ribbon Study Panel on Biodefense, which 
I am privileged to co-chair with Tom Ridge. Tom has had some 
health problems, as I am sure you have heard, but actually he 
is on his way home today, and he is really recovering very 
well. So we are all thrilled to say that.
    This is a panel that operates out of the Hudson Institute, 
small but high quality. Besides Tom and me, it is former 
Secretary of Health and Human Services Donna Shalala, former 
Congressman Jim Greenwood, former Homeland Security Adviser Ken 
Wainstein, and most especially former Senate Majority Leader 
Tom Daschle, who, as you know, Mr. Chairman, traveled out to 
Manhattan, Kansas, on a cold January day earlier this year to 
convene some of the best minds on this topic at Kansas State 
University, and his work that day really informs my testimony 
this morning.
    This Panel was formed in 2014. A year later we issued our 
first report about the general state of our biodefenses, which 
we found were lacking leadership, focus, and adequate funding. 
After that we decided to take segments and dig deeper into 
them, and the first we have done is the security of our 
agriculture sector. We did that, one, because of its importance 
to our country. As both of you said, agriculture accounts for 
at least 5.5 percent of our gross domestic product. More than 
11 percent of workers in America are involved in agriculture. 
Second, some people say, ``Is this really a problem, the 
security of our agriculture?'' Well, it is. The most visible, 
tangible examples we have had are the avian flu outbreak, which 
you both talked about, which was dramatic and cost the 
economy--obviously, killed a lot of birds, but also cost the 
economy, by the best estimates I have seen, well over $3 
billion. That all started, as far as we can tell, with 
migration of wild birds that basically conveyed this influenza 
to poultry in the U.S. and then it spread.
    The great fear is that this will happen and it will spread 
from the birds to people, which is actually what is happening 
with a strain of avian influenza now in China called ``H7N9,'' 
which has caused a disproportionate number of deaths there and 
is of concern. So this is a real problem.
    The other thing to say, as you know, is that in 2002, when 
the SEAL team made its way into a cave in Afghanistan where 
Osama bin Laden had been hanging out, they found among the 
various documents a list of pathogens that were clearly focused 
on biological terrorism. Ten targeted agriculture, six, 
livestock and poultry, and four, crops. So this is a real 
problem, and that is why we have focused on it.
    The biological connection between people, animals, their 
environments, and the pathogens that can infect them has 
unfortunately not meant the kind of focused leadership response 
and adequate policy connections at the Federal, State, and 
local level that we need. I really appreciate the fact that as 
you begin to work on a new Farm Bill, this is a moment of 
opportunity to really build on what the previous Farm Bill did 
when it comes to agricultural security.
    Inadequate attention and funding is more severe in the 
animal health sector than in public health generally. In Fiscal 
Year 2017, according to OMB, the agriculture protection 
function represented about 0.76 percent of the total 
governmentwide homeland security budget request.
    So our panel set out over the last year resulting in a 
report that came out a short while ago to identify what the 
challenges were in agricultural security and proposes some 
responses. Let me briefly give you three primary findings of 
the report and three recommendations.
    The first was there was an insufficient mission ownership 
by any department of the Federal Government, inadequate 
leadership. Because agrodefense is so broad and complex a 
mission space, significant involvement of most Federal 
departments and agencies, or a lot of them, is required. White 
House-level leadership is critical to minimize the inevitable 
overlap, to identify mission gaps, and coordinate interagency 
cooperation.
    Many departments undertake agro and food defense activities 
of some kind, especially the Department of Homeland Security, 
the Department of Agriculture, obviously, and the Food and Drug 
Administration. Some of these are clearly effective programs, 
but overall, we have found that there is a real absence of the 
kind of leadership to coordinate them and get our money's worth 
out of what we are investing.
    Second, support given to some of the most important 
agrodefense programs in areas such as biosurveillance and 
medical countermeasures is just not enough to meet the threat. 
In fact, the Department of Homeland Security requested no 
budget for agrodefense research and development for Fiscal Year 
2018.
    Our panel heard understandable concerns about where the 
money to actually do the research in the billion dollar 
National Bio and Agro-Defense Facility, NBAF, will come from, 
and we share those concerns as a panel and hope this Committee 
can lead the way on making sure that this remarkable and really 
critically needed facility being built in Manhattan, Kansas, is 
adequate funded to do what we want it to do.
    Third, there is insufficient promotion of innovation in 
agrodefense. The technological status quo cannot really be 
tolerated anywhere because of the enormous technological 
advances occurring in our world today, and it is certainly 
inadequate to protect the food and agriculture sector from a 
major outbreak. The Nation needs new ideas, and scientific 
solutions to drive agrodefense approaches beyond their current 
borders.
    Now three responses that we recommended. One, the Panel 
really focused on the White House here and urges the White 
House to exert leadership across departments beginning with the 
promulgation of a National Biodefense Strategy, which was 
called for in our report and also mandated by the National 
Defense Authorization Act last year that will meaningfully 
address threats to food and agriculture.
    OMB should incorporate detailed agrodefense expenditures 
into a cross-cutting biodefense budget analysis. Mr. Chairman, 
Senator Stabenow, I will tell you that one of the unsettling 
facts that the committee learned when we did our first report 
is that nobody in the Government could actually tell us how 
much we were spending on biodefense. We actually got an 
estimate from the University of Pittsburgh, which has a great 
center of study in this area. But nobody could tell us how much 
is being spent, and you cannot figure out if you are spending 
it wisely if you do not know what you are spending.
    Second, we can and should mitigate threats to livestock 
when they appear with effective medical countermeasures. 
Despite some gains, the availability of adequate medical 
countermeasures for animals lags way behind what is needed and 
does not meet the Government's own requirement to deploy 
sufficient high-consequence animal disease medical 
countermeasures within 24 hours of an outbreak. If Congress 
were to formally authorize something that exists now, the 
National Veterinary Stockpile, that would send a strong message 
that this is a necessary national asset.
    Third, we recommended the establishment of a prevention 
fund for animal health, much like that created in the 2008 Farm 
Bill for plant health because we think that would create a real 
legislative basis for prevention activity. Such a fund could 
encompass programs like the National Wildlife Disease 
Surveillance Program, which operates really on a shoestring. 
When you think about the fact that the avian flu outbreak 
started with migrating wild birds, I think you can get the 
significance of that.
    Okay. I am going to come quickly to a close and close with 
a little bit of good news, which is that our panel has really 
been encouraged by the way in which Tom Bossert, who is the 
Homeland Security Adviser in charge of this area at the 
National Security Council at the White House, has taken this 
mandate for a National Biodefense Strategy quite seriously and 
is working very hard on delivering a strategy soon. He has got 
many other departments around the table drafting it with him, 
including the U.S. Department of Agriculture. We hope that the 
White House will maintain the momentum generated by this 
process and lead the relevant agencies to a new level of 
planning and operating with respect to agricultural security, 
and then the obvious and necessary and really important follow-
on is what this Committee does in the Farm Bill.
    Mr. Chairman, I thank you very much for focusing on the 
problem, for giving me a chance to testify on behalf of this 
panel, and, of course, I look forward to answering any 
questions you have.
    [The prepared statement of Senator Lieberman can be found 
on page 41 in the appendix.]
    Chairman Roberts. Senator, I cannot emphasize enough how 
much we appreciate your leadership and taking time from your 
busy schedule to serve on this Blue Ribbon Panel and to provide 
the leadership, along with Tom Ridge, who is a great friend. I 
used to try to set blind side picks on Tom when I made the 
mistake of trying to play basketball over in the House.
    Senator Lieberman. Not smart.
    Chairman Roberts. That is not a good idea.
    Senator Lieberman. Not smart, right.
    Chairman Roberts. It is just not. But thank you, two good 
friends on the Panel.
    Senator Lieberman. I will tell him you said that.
    Chairman Roberts. Yeah, you can give that message.
    Senator Lieberman. Okay.
    Chairman Roberts. Thank you for a very comprehensive 
statement and specifically outlining what I think that this 
Committee should consider. I would just say that taking part in 
several exercises--and I think we should have more--back in the 
day, and going to Obelinsk and seeing those warehouses full of 
pathogens that were meant to basically destroy a country's 
capability to feed their people, that was quite an eye-opener. 
I wonder where the pathogens are now. I do not know if they 
have the capability to dispose of them in a safe way, and I do 
know that is an opportunity for several rogue states to latch 
onto those. So it is a real matter of national security.
    Senator Lieberman. Mr. Chairman, if I may, perhaps you saw 
over the weekend in the Washington Post there was an article 
about the evidence that the North Koreans, Kim Jong-un has an 
active pathogen development program. So there is another 
contemporary source of worry, to say the obvious.
    Chairman Roberts. I appreciate that very much, and thank 
you for bringing it up.
    Mr. President, General Myers.

STATEMENT OF GENERAL RICHARD B. MYERS, PRESIDENT, KANSAS STATE 
                 UNIVERSITY, MANHATTAN, KANSAS

    General Myers. Chairman Roberts and Ranking Member Stabenow 
and distinguished members of the Committee, I am absolutely 
honored to appear before you today on behalf of Kansas State 
University for this hearing that is entitled, ``Safeguarding 
American Agriculture in a Globalized World.''
    You know, life has interesting twists and turns, and I 
never thought when I was still in uniform that I would be 
sitting at a witness table with Senator Lieberman. We had a 
much different relationship, although I would say a very 
professional and pleasant relationship--at least my memory is 
such.
    Senator Lieberman. That is my memory, and it is good to be 
sitting at a witness table that is not in a criminal 
proceeding.
    [Laughter.]
    General Myers. We could be thankful for that. So thank you. 
It is an honor and a privilege to be with all of you.
    Food insecurity is an ever increasing global problem as 
delineated in a 2015 assessment by our intelligence community, 
and as people say, hungry people are not happy people. America 
still feeds the world, so there is an urgent need to protect 
America's food crops, food animals, and food supply from 
naturally occurring and intentionally developed and delivered 
biological threats. Either could be devastating, either 
economically or to our health.
    As Senator Lieberman mentioned, one of those early 
discoveries going into Afghanistan in 2002 was that list of 16 
pathogens that al Qaeda was planning to use as bioweapons. I 
think it is worth noting that only six of them were targeted 
against people. Another six were pathogens of livestock and 
poultry, and four were crop pathogens. So al Qaeda was not just 
planning to attack people with biological weapons; they were 
going after agriculture and food as well. So that idea is out 
there.
    I would say also when al Qaeda was driven--some of them 
were driven from Afghanistan, a few of them pooled up in 
northeast Iraq, and we saw them conducting experiments on 
animals, dogs and I think there were some sheep or goats as 
well. What we could tell from the intelligence at the time was 
that they were trying some of these bioweapons on these 
animals. So this goes on. Al Qaeda may be down, but they are 
not out, and that notion of hurting us economically is one that 
is pretty prevalent among those that want to cause us harm. 
Natural outbreaks, of course, can have the same impact.
    If you consider the UN Food and Agriculture Organization 
assessment that ``just 15 crop plants provide 90 percent of the 
world's food energy intake, with three--wheat, rice, and 
maize--making up two-thirds of this,'' 90 percent makes the 
protection of food crops rather significant.
    If wheat, rice, or corn are targeted successfully by 
bioterrorists or if there is a natural disease outbreak that 
devastates the global supply of any one of the three, the world 
will be in big trouble. Kansas, the Wheat State, takes such 
matters very seriously.
    The U.S. must worry about innumerable foreign animal 
disease threats today. The top-line concerns are those 
currently projected to be worked on at the U.S. Department of 
Homeland Security's $1.25 billion National Bio and Agro-Defense 
Facility, hereafter called ``NBAF,'' under construction on the 
K-State campus. These include the livestock-only threats--
African swine fever, classical swine fever, and foot-and-mouth 
disease--along with zoonotic diseases--Rift Valley fever, 
Japanese encephalitis, Nipah virus and Ebola virus. Any of 
these and innumerable other foreign animal diseases could 
ravage America's agricultural infrastructure, the food supply, 
and economy if they hit the U.S. Zoonotic diseases could 
devastate public health as well.
    There have been some foundational efforts to try to address 
that. I know the Committee is fully aware of the Homeland 
Security Presidential Directive/HSPD-9, a national policy to 
defend the agriculture and food systems against terrorist 
attacks, major disasters, and other emergencies. As a result, I 
will not go through the parameters detailed in my written 
testimony. Nonetheless, I would note that all six of the key 
requirements in HSPD-9 are essential to safeguarding American 
agriculture in a globalized world.
    Just to remind, number one is awareness and warning; number 
two is vulnerability assessments; number three is mitigation 
strategies; number four is response planning and recovery; five 
is outreach and professional development; and six, research and 
development. When I go through my path forward here in just a 
minute, I will come back to those.
    As the Committee knows, protecting U.S. agriculture is a 
mission of America's land-grant universities, among others, a 
mission that began in 1862 when President Lincoln signed the 
Morrill Act. As someone relatively new to land-grant 
administration, but someone with a lifelong commitment to 
national defense, I am convinced that the Nation's land-grant 
universities can and should play a significant role in U.S. 
bio/agrodefense. These institutions participate in protecting 
agriculture and food in their States and region each and every 
day. I would say not only in their States but around the world, 
and I am sure that is true for Michigan State. I know it is 
true for Kansas State that when something happens in the world, 
some of our research specialists, they are on the road being 
called out to try to help.
    Thus, we would encourage the Committee to integrate the 
land-grant universities into whatever solutions are developed. 
K-State stands ready to participate on the national team and 
lead when applicable. Protecting America's agriculture and food 
infrastructure is too important not to be a part of it.
    For K-State, this is not a new realm. Back in 1999, with 
encouragement from the Chairman of this Committee, K-State 
developed a 100-page ``Homeland Defense Food Safety, Security, 
and Emergency Preparedness Program.'' We called this the ``Big 
Purple Book'' because, A, that is our color, so it is purple, 
and it is relatively big, actually. That was put together in 
March or published in March of 1999 before there was a lot of 
attention on some of this, especially the bioterror piece of 
it. It still pertains today. What is in the book is still 
pertinent. But it documented the need for a biocontainment 
facility capable of conducting research and development on 
biothreats to food crops, food animals, and the food supply.
    Post 9/11/2001, funding was obtained for such a facility, 
and the Biosecurity Research Institute, the BRI, at Pat Roberts 
Hall at K-State became a reality. The BRI at Pat Roberts----
    [Laughter.]
    General Myers. I did not hear the comment. Was there 
applause for that one?
    [Laughter.]
    Chairman Roberts. That was back in the day where we had 
constitutionally driven subjects.
    [Laughter.]
    Chairman Roberts. Note all these comments are coming from 
the minority side.
    Senator Heitkamp. That is the only side that is here.
    [Laughter.]
    Chairman Roberts. I was going to say I appreciate that very 
much.
    General Myers. I think I am sorry I paused, actually.
    Chairman Roberts. Right. I should say, ``Now, Heidi, cut 
that out.''
    [Laughter.]
    Chairman Roberts. We just did that with Joe, so it is all 
right.
    Please proceed, General.
    General Myers. Thank you, Mr. Chairman.
    The BRI at Pat Roberts Hall is located immediately adjacent 
to the National Bio and Agro-Defense Facility site, and it 
includes five BSL-3Ag rooms that can be configured for research 
with cattle, pigs, sheep, goats, and poultry.
    K-State has jump-started NBAF research in the BRI on Rift 
Valley fever, Japanese encephalitis, classical swine fever, and 
African swine fever. We were able to do so because the State of 
Kansas agreed to fund $35 million for NBAF research in the BRI 
at Pat Roberts Hall as part of our ``best and final offer'' in 
trying to attract NBAF to Manhattan, Kansas.
    R&D continues on all four of these foreign animal diseases 
today, but the Kansas funding commitment will end in 2019 when 
the last $5 million is appropriated by the State legislature. 
The majority of the research is conducted at the BRI by the K-
State faculty, staff, and students, but collaborators from the 
USDA's Center for Grain and Animal Health Research in Manhattan 
participate on some of the NBAF-related foreign animal disease 
projects. Moreover, this Center for Grain and Animal Health 
USDA Center conducts other USDA BSL-3/3Ag biocontainment 
research in the BRI as well.
    Going forward, Federal support is needed for research and 
development on Rift Valley fever, Japanese encephalitis, 
classical swine fever, and African swine fever to help mitigate 
these threats to animal health and to public health.
    So a proposed path going forward and the things that I 
would focus on: K-State believes that statutory authorization 
of the key provisions of HSPD-9 with clearly delineated and 
enforceable accountability, along with the appropriation of 
funds to support the key provisions, is required to safeguard 
American agriculture in a globalized world. I will only touch 
on the first 5 of the 13 recommendations that are in my written 
testimony.
    Number 1 is, and consistent with the HSPD, enhance 
intelligence operations and analysis capabilities, awareness 
and warning are essential. But today there are insufficient 
numbers of bio/agrodefense subject matter experts, 
veterinarians, animal scientists, crop scientists, plant 
pathologists, et cetera, with security clearances to assess 
classified intelligence. It is vital to increase the number of 
food crop, food animal, food safety subject matter experts with 
high-level security clearances--TS-SCI--to monitor global 
threats.
    Also increase the number of Sensitive Compartmented 
Information Facilities, or SCIFs, with secure communications 
that have agriculture/food subject matter expert analysts and/
or cleared SME advisers with top secret SCI clearances.
    Also important to increase the number of USDA's subject 
matter experts with security clearances. Discussions in 2016 
with USDA's chief scientist and a USDA intelligence analyst 
confirmed their frustrations with an inability to convey 
critical classified information within USDA to make it 
actionable.
    Then it is also important, I think, to increase State 
Intelligence Fusion Centers with agricultural and food subject 
matter experts with clearances, with security clearances. The 
Kansas Intelligence Fusion Center appears to be the only fusion 
center of over 70 nationwide that has a biothreat team with TS-
SCI-cleared subject matter experts capable of assessing the 
full range of biohazards to food crops, food animals, the food 
supply, and people. These include a doctor of veterinary 
medicine, three Ph.D. scientists and researchers from Kansas 
State, medical doctors from the University of Kansas Medical 
Center, and subject matter experts from multiple State 
agencies. This permits the Kansas Fusion Center to assess 
global intelligence for the purpose of preventing bioterrorism 
and preparing for natural infectious disease events that are 
emerging globally and coming to the United States.
    So what the Kansas Intelligence Fusion Center really 
focuses on is ``left of the event.'' We like to prevent the 
event, not just react. We are always going to have to be able 
to react, but they really work on preventing.
    So if you have that intelligence, if you have the right 
intelligence, then you can do vulnerability assessments, 
mitigation strategies, and response planning and recovery. 
Without it, you cannot take those steps that are outlined in 
the HSPD.
    Under emerging foreign animal diseases, exploit ``awareness 
and warning'' intelligence regarding newly emerging biothreats 
to establish mitigation strategies at USDA's Center for Grain 
and Animal Health Research and K-State prior to NBAF becoming 
operational and fund R&D to confront these threats. We cannot 
wait for the NBAF to come online with its funding to do that.
    Under zoonotic animal disease research, establish zoonotic 
foreign animal disease mitigation strategies at the USDA's 
Center for Grain and Animal Health Research and for Rift Valley 
fever and Japanese encephalitis, and fund Rift Valley fever and 
Japanese encephalitis R&D in the BRI at Pat Roberts Hall. That 
funding, again, goes away in Fiscal Year 2019, and there is a 
big gap between that time and when NBAF will come online, which 
is, I think, programmed to be or planned to be now somewhere 
2022 to 2023.
    For the non-zoonotic foreign animal disease research, 
expedite threat mitigation strategies for these foreign animal 
diseases by moving the research portfolios for African swine 
fever and classical swine fever from Plum Island to USDA's 
Center for Grain and Animal Health Research and funding African 
swine fever and classical swine fever R&D in the BRI/Pat 
Roberts Hall until NBAF becomes operational. So if we do not do 
this, there will be a gap in that research, and some, of 
course, will probably lose ground in those areas.
    Then private sector outreach, another part of HSPD-9. 
Enhance outreach and professional development by leveraging the 
Nation's land-grant universities that interact routinely with 
private sector agriculture producers and food processors, and 
by funding education and training programs.
    So those are 5 of the 13 points, and I thought I would 
mention them here in my oral statement.
    To sum up, I think HSPD-9 was very well conceived, but it 
has not gotten the job done since it was written. Key 
components of American critical infrastructure--agriculture and 
food--and, by the way, I think agriculture and food are 
critical components of our infrastructure and often not looked 
at that way. We focus on other components of the 
infrastructure, but agriculture and food clearly are right up 
there in my estimation--are vulnerable to terrorist attacks 
with bioweapons and undeliberate infectious disease outbreaks, 
and I think the U.S. is unprepared to confront these threats. 
So my recommendation is that Congress enact enforceable 
statutes before it becomes too late.
    Thank you, Mr. Chairman.
    [The prepared statement of Gen. Richard B. Myers can be 
found on page 59 in the appendix.]
    Chairman Roberts. Thank you, General.
    Dr. Hammerschmidt, before I recognize you, I would be 
remiss if I did not indicate that over General Myers' right 
shoulder or right behind his shoulder, where he usually is, is 
Dr. Ron Trewyn, who knows as much or more about this entire 
topic than anybody. I thank him for his advice and counsel and 
friendship down through the years. To Dr. Trewyn's right is Dr. 
Sue Peterson, who is in charge of everything good that is 
happening at Kansas State University.
    [Laughter.]
    Chairman Roberts. Dr. Hammerschmidt.
    General Myers. Absolutely right. Thank you.

     STATEMENT OF RAYMOND HAMMERSCHMIDT, PH.D., PROFESSOR, 
  DEPARTMENT OF PLANT, SOIL, AND MICROBIAL SCIENCES, MICHIGAN 
            STATE UNIVERSITY, EAST LANSING, MICHIGAN

    Mr. Hammerschmidt. Chairman Roberts, Ranking Member 
Stabenow, and distinguished members of the Committee, thank you 
for this opportunity to speak with you today not only on behalf 
of Michigan State University, but also all the very hard 
working plant and disease pest diagnosticians across the land-
grant system.
    As a plant pathologist and also Director of the USDA-NIFA-
supported North Central Plant Diagnostic Network, and former 
Executive Director of the entire network, I have become very 
familiar with the threats that plant agriculture in particular 
faces from both introduced and endemic pests and pathogens.
    I would like to start essentially by saying I think we are 
relatively ill prepared to combat many of these pathogens and 
pests, both in our food supply and plant agriculture. There is 
a set of plant pathogens that are on the select agent list, and 
we must be on guard for these, but there are many other pests 
and pathogens that threaten plant agriculture and plant 
production.
    Pathogens and pests do not recognize borders or regulations 
and this should give us pause in this global economy. In some 
plant systems, we are now seeing increased potential for 
pathogens and pests to jump from one host species to another, 
and the effects of climate change cannot be discounted in some 
of the changes we are seeing in these pest outbreaks.
    Although not a food crop, pathogens and pests also threaten 
greenhouse and nursery industries. In Michigan alone, there are 
over 700 greenhouses producing $472 million worth of 
ornamentals. I bring this up in part because of the economic 
value, but also in 2003, a select agent, Ralstonia 
solanacearum, which is a devastating disease on potato and 
tomato, was accidentally introduced in geraniums. This was 
devastating to the Michigan geranium industry, the greenhouse 
industry, but we were able to stop this before it became a 
threat. But, again, pathogens can come in all sorts of 
interesting ways.
    There is also a potential impact on our forests. Plant 
pathogens and pests also pose threats to the livestock industry 
because of the feed that is produced through plants, and some 
plant pathogens produce mycotoxins that can contaminate grain.
    There are three major factors that we think about when 
considering whether an endemic or a deliberately introduced 
pathogen can cause significant damage: one is obviously the 
pathogen; second is the susceptibility of the host plant; and, 
third, whether or not we have an environment that is conducive 
to disease.
    Probably the most classic example of how these three 
factors work together was the late blight potato epidemic in 
Northern Europe and Ireland in the 1840s where the crop was 
literally wiped out, causing both social and economic problems 
for that part of the world, as well as large immigrations out 
of Europe.
    Resistance was eventually bred into the potato, but 
pathogens, being rather clever, were able to overcome this 
resistance shortly after the resistance was introduced. We have 
fungicides that are effective, but not unlike the situations we 
see in animal and human health, these pathogens overcome these 
chemistries rapidly as well. So we have scenarios like this 
which, unfortunately, are being replicated with many plant 
diseases and also plant pests.
    Early and rapid detection and diagnostics, therefore, are 
vital. The MSU Plant Diagnostics Laboratory is one of the major 
contributors to early detection and accurate diagnoses. We have 
specialists that cover all four pest types, and we conduct 
tests in samples representing over 100 plant species each year. 
We continue, as we do across the country, to try to introduce 
new diagnostic tools and serve not only the general public but 
also work with agencies in protecting plant agriculture.
    The MSU Lab is one of the land-grant laboratories that 
collectively form the National Plant Diagnostic Network. This 
network is involved in rapidly detecting and diagnosing plant 
pathogens and pests. We are also involved in recording this 
information at the appropriate entities, whether it is back to 
the grower or to regulatory agencies, so we can have 
mitigation.
    The NPDN has five hub labs: Michigan State, Kansas State 
University, University of Florida, Cornell University, and the 
University of California-Davis. As I mentioned, it is supported 
by NIFA through the Food and Agriculture Defense Initiative, 
which also supports the National Animal Health Lab Network and 
the Extension Disaster Education Network.
    We work closely with APHIS PPQ to complement their 
regulatory roles by serving as triage for pathogens of 
regulatory concern and assisting in surge diagnostics. All the 
labs in the land-grant system and the NPDN can really be 
thought of as sentinels and, thus, a first line of defense for 
diseases and pests of plants.
    Even with the ongoing local and national efforts, there is 
still a need for research to develop better detection and 
diagnostic tools. More sophisticated surveillance is needed to 
survey large acreage crops and natural resources.
    We also must continue to educate and prepare what we call 
``first detectors.'' These are individuals who are trained to 
detect unusual events and know how to take a sample and ship 
samples in for diagnosis. Extension educators and crop 
consultants are two of the audiences for this type of 
education, and through the NPDN we have developed programming 
for this type of activity.
    Equally important is raising public awareness of these 
issues, both on the animal and plant side. This is something 
which, as I think has been mentioned already, sort of flies 
under the radar. Most folks do not understand where their food 
comes from and the importance of managing these pests and 
diseases.
    There is an added pressure of climate change, and the 
probability of potentially devastating pathogens and/or pest 
infestations has become much more complex by this change. 
Temperature and weather play a key role in determining the 
ability of diseases to spread and even survive, and we are 
seeing pathogens in Michigan which used to be unable to 
overwinter, but now are able to survive through the winter 
months.
    Disease and pests can also cause significant economic 
losses across the agricultural spectrum. In Michigan, we have 
all kinds of examples of new and even reemerging pathogens, 
from cucumber downy mildew, soybean sudden death, fire blight 
of apple, spotted wing drosophila that Senator Stabenow 
mentioned, stink bugs, stripe rust, oak wilt, and the list goes 
on and on. I guess the curse and the blessing of having many, 
many commodities is you get many, many pests and pathogens. In 
many of these cases, unfortunately, disease resistance may not 
be available, and this is confounded by the development of 
resistance to effective pesticides. There is also a risk for 
pathogens and pests to make their way to Michigan via the busy 
port of Detroit Metro Airport and the port of Detroit.
    To summarize, pathogens and pests of plants will continue 
to evolve in ways to overcome host resistance and the chemical 
control tools making introduced, endemic, and reemerging pests 
more dangerous. Some of these may even find new hosts or expand 
their host ranges. Environmental stresses on plants can also 
lead to more extensive pathogen and pest damage.
    Because of global trade, we are at risk of introducing new 
pests and pathogens as well as variants of endemic species, 
which make them more difficult to detect against the background 
noise. Thus, the threat to plant systems can come from many 
different directions, and the need for proactive detection, 
diagnostic technologies, and enhanced coordinated preparedness 
at all levels is more important than ever before.
    As I have told many groups that I have spoken to about this 
topic, we know that it is not whether one of these major events 
occur but when it is coming and what we need to do to become 
better prepared.
    Thank you.
    [The prepared statement of Mr. Hammerschmidt can be found 
on page 32 in the appendix.]
    Chairman Roberts. We thank you for your testimony.
    Dr. Meckes, please.

  STATEMENT OF R.D. MECKES, D.V.M., STATE VETERINARIAN, NORTH 
   CAROLINA DEPARTMENT OF AGRICULTURE AND CONSUMER SERVICES, 
                    RALEIGH, NORTH CAROLINA

    Mr. Meckes. Chairman Roberts, Ranking Member Stabenow, and 
distinguished members, I am Dr. Doug Meckes. I serve as the 
State veterinarian and the director of the North Carolina 
Department of Agriculture's Veterinary Division. The division 
includes 150 employees that serve our poultry and livestock 
industries and manage and operate our four diagnostic 
laboratories. Thank you for the opportunity today to speak 
about matters of concern in North Carolina's ongoing efforts to 
prepare for and respond to agricultural emergencies.
    North Carolina enjoys a robust agribusiness industry which 
contributes nearly $84 billion on an annual basis to North 
Carolina's economy. That is 17 percent of the State's gross 
domestic product and 17 percent of our State employees. North 
Carolina's animal agriculture industry, livestock, dairy, and 
poultry, accounts for 68 percent of farm cash receipts, and 
North Carolina ranks second in hog production and third in 
poultry production in the Nation.
    As was mentioned, prior to accepting this position, I spent 
7 years in the Department of Homeland Security as the Branch 
Chief of the Food, Agriculture, and Veterinary Defense Branch 
where we were charged with implementing the Department's 
responsibilities in Homeland Security Presidential Directive 9. 
That document served as the foundation for all of the efforts 
that were undertaken by our branch.
    Today, as we consider our topic, safeguarding American 
agriculture in a globalized world, a revisit of HSPD-9 is worth 
the effort. The directive's 18 line items provided guidance in 
2004 to address then-identified gaps in the Nation's ability to 
defend agriculture and food. Thirteen years later, progress has 
been made in addressing some of the gaps, not the least of 
which as I referred to as a ``star in the crown,'' the National 
Bio and Agro-Defense Facility in Manhattan, Kansas, which 
brings to reality Line Item 24, ``a safe, secure, state-of-the-
art agriculture biocontainment laboratory.'' This achievement 
notwithstanding, other gaps in HSPD-9 have not been 
sufficiently addressed. Allow me to speak to three of those 
quickly, which are of concern not only to North Carolina but to 
my colleagues and State animal health officials all around the 
country.
    First is the absence of needed vaccines for the use in the 
introduction of a foreign animal disease, certainly a worry in 
North Carolina with 9 million pigs east of I-95.
    Line Item 18 called for a National Veterinary Stockpile 
containing sufficient vaccines to respond to the most damaging 
animal diseases capable of deployment within 24 hours. We have 
not achieved this goal.
    Particularly concerning is foot-and-mouth disease. In the 
event of a foot-and-mouth disease outbreak in the U.S., the 
North American Vaccine Bank would be triggered, and vaccine 
produced from that bank would be shared by the U.S., Canada, 
and Mexico. The bank contains types or subtypes of virus that 
are a threat to the U.S., but the quantities of antigen 
available would produce only enough vaccine for a small, 
confined outbreak, 2.5 million doses for each of the stored 
antigens' types and subtypes.
    An FMD outbreak in a livestock-dense area of the U.S. 
cannot be controlled without immediate access to millions of 
doses of vaccines, and in the absence of sufficient vaccine, 
the economic losses associated with an uncontrolled outbreak 
would cost the Nation $200 billion over 10 years.
    Next, Line Item 14 of HSPD-9 directs participating 
departments and agencies to ensure that the combined Federal, 
State, and local response capabilities are adequate to respond 
quickly and effectively to a terrorist attack, a major disease 
outbreak, or other disaster affecting our food and ag sector. 
We are fortunate in North Carolina, for even before HSPD-9, 
members of the North Carolina Department of Ag recognized the 
need for such a capability. In 2002, the Emergency Programs 
Division within the department was created. Its mission: to 
reduce the vulnerability and minimize the impact from any 
natural or man-made disaster, disease outbreak, or terrorist 
attack for the department, for the people of North Carolina, 
and the agriculture interests of the State.
    The continued refinement of preparedness and response 
capabilities over the years has resulted in a team of 
agricultural and emergency management personnel ready to 
respond to any incident, fully engaged at the Federal, the 
State, and the local level.
    Today the EP Division has reached maturity, and its sphere 
of influence is considered All-Hazards. The development of that 
capability has been funded by the State and through various 
Federal grants, some $7.3 million in Federal money, $18 million 
in State money. A relatively small investment over the years 
has brought the vision of HSPD-9's Line Item 14 fully to 
fruition in North Carolina. With additional funding targeted 
for such programs, similar capability could be developed in 
other States.
    Finally, I will address the veterinary diagnostic 
laboratory capacity in North Carolina and across the Nation. 
Line Item 8 of HSPD-9 speaks to the need to develop nationwide 
networks that integrate existing Federal and State laboratory 
resources. The National Animal Health Lab Network, the NAHLN, 
was developed as a result of this directive and is now part of 
a nationwide strategy to coordinate the work of all 
organizations providing animal disease surveillance and 
testing. As one of the 12 original NAHLN labs, North Carolina's 
Rollins Veterinary Diagnostic Lab in Raleigh receives 
significant infrastructure support from USDA. That funding 
enables Rollins and other NAHLN laboratories to be fully 
committed to the NAHLN mission and able to respond to domestic 
or foreign animal disease emergencies on a 24/7 basis. In 
addition, the North Carolina laboratories receive State-
appropriated funds for salaries and expenses, operations, and 
maintenance.
    In closing, let me say that while I have addressed only 
three of the line items in HSPD-9, several others are worthy of 
another look. But in speaking with my State animal health 
official colleagues, particularly those in animal-dense states, 
I believe the issues addressed above to be of immediate concern 
and worthy of attention. As I am certain you all are aware, 
numerous animal agriculture groups, animal science 
organizations, and veterinarians support a new Animal Disease 
and Disaster Prevention Program for inclusion in the 2018 Farm 
Bill. This program speaks specifically to ensuring fully 
trained, appropriately equipped, response-ready teams at the 
State level--not unlike the Emergency Programs Division here in 
North Carolina--and increased support for the NAHLN laboratory 
system to enhance the Nation's animal disease prevention 
efforts. Additionally, a proposal for establishing and funding 
a robust U.S. Foot-and-Mouth Disease Vaccine Bank for inclusion 
in the Farm Bill is considered a top priority by many in the 
animal agriculture industry.
    Thank you for the opportunity to speak today on behalf of 
North Carolina and my colleagues around the country about 
issues concerning agriculture and food.
    [The prepared statement of Mr. Meckes can be found on page 
47 in the appendix.]
    Chairman Roberts. I thank you, Doctor.
    Senator Stabenow?
    Senator Stabenow. Well, thank you, Mr. Chairman. I want to 
thank all of you for coming and for this very important 
testimony. I am attempting to be two places at once and am 
going to have to step away, and so I want to thank the Chairman 
again.
    I do have questions, but I will follow up with all of you 
regarding that. I am hopeful that there will be some discussion 
on one of the additional threats, which is our changing 
climate, which I know for us in Michigan with all of our 
diversity of crops is certainly an additional challenge as 
well.
    Thank you, Mr. Chairman.
    Chairman Roberts. Senator Heitkamp.
    Senator Heitkamp. Thank you, Mr. Chairman. You know, I 
think about this, and I think that we have so narrowly defined 
our national security interests that this is such important 
testimony and such an important topic that we really should 
have a roomful of people listening to the concerns that you are 
expressing and some of the planning.
    One of the challenges--and I think this is to Senator 
Lieberman. One of the challenges I think we are experiencing is 
the sense of complacency, and you see it in a Presidential 
budget that basically zeroes out research, zeroes out 
coordination, ignores, in my opinion, the land-grant colleges 
where we have had this incredible history of flexibility and 
response. I am wondering, how can we do a better job to educate 
the rest of the public, Senator, on what this threat is and how 
we need to be better prepared? You all have outlined some great 
preparations. I still do not walk away from here with a sense 
of comfort that we are as prepared as what we should be.
    Senator Lieberman. Thanks for the question, Senator 
Heitkamp. I totally agree with you. This is a real--agrodefense 
is a real national security problem, not only the material that 
was talked about before that was found in al Qaeda's possession 
and now the latest stories about Kim Jong-un having an active 
pathogen development program.
    If you were an enemy of the United States and wanted to 
strike us, we talk about cybersecurity--nuclear weapons always 
get the most attention because they are so terrifying to 
everybody. But when you think about the damage that could be 
done to our economy, to our country, to our people, create real 
terror, a sense of terror, if somebody successfully attacked 
with a pathogen our agriculture sector, and when you think 
about the fact that it is relatively easier to do than to 
launch a nuclear attack, thank God, against our country.
    So how do you get attention for it? Unfortunately, it is 
very hard, particularly in the context of everything happening 
in our political system, the media focus on the day-to-day ups 
and downs of what is happening in the White House and what 
people respond to.
    The media has a responsibility here--but that is up to them 
under the First Amendment still--to focus on this, and to the 
extent we can encourage them and sort of give them material to 
do it, that is why I thought the article--I think it was Joby 
Warrick who wrote it--in the Washington Post over the weekend 
about the North Korean pathogen program was so important.
    But it is also a role for congressional leadership, and I 
do not expect this hearing to make the evening news, but it 
should.
    Senator Heitkamp. Yeah.
    Senator Lieberman. So there is a really important 
leadership role for Congress here and, of course, the executive 
branch, but it may be one of those things that--I remember 
people would say this to me, my senior colleagues when I was 
here, ``You know, you are going to do some things here that 
will be probably the most important things you do for the 
country, and very few people will know you did them.'' This may 
be one of those, so I appreciate the leadership that the 
Committee is showing, because this really is a threat to our 
country. That is part of why the various things that have come 
my way since I left the Senate, that I grabbed onto this one 
because I feel it is something that, working with Tom Ridge, we 
can make a difference on.
    Senator Heitkamp. I think when we look, Mr. Chairman, at 
people, if an event happens, people say, ``Well, who could have 
anticipated that?'' Most of this is anticipate-able.
    Senator Lieberman. Right.
    Senator Heitkamp. But there needs to be a coordinated 
response, and I have many more questions, but I want to thank 
the Chairman for bringing this very important national security 
issue to this Committee. I think it has not gotten the 
attention that it should. When you look at kind of long term 
what should terrify us, with all the horrors out there, 
pandemics and this kind of pathogen invasion--and that is the 
way we should think about it--and what is our resilience, what 
is our resistance, and what is our plan, and how are we funding 
it, and it should be right up there with all of the other 
threats that we are talking about. So I applaud the Chairman 
for bringing this issue. I think it is something that we should 
be talking about in your former Committee, which I also serve 
on, Homeland Security, and I promise to raise that issue with 
the Committee as well.
    Senator Lieberman. That is really important, Senator. I am 
sorry. I will yield to you in a minute, General. But just to 
say very briefly I served on Armed Services and on Homeland 
Security, was privileged to be the Chair of Homeland Security, 
and it is not natural--this topic of agro-security is not 
naturally the first topic to come up, certainly not in the 
Armed Services Committee, where it should, and also in Homeland 
Security. But this is the Agriculture Committee, and I think 
the Farm Bill for next year really can play an important 
leadership role here.
    Excuse me, General.
    General Myers. Mr. Chairman, could I make a remark?
    Chairman Roberts. Yes, sir.
    General Myers. Senator, I totally agree, and it struck me 
when I got to Kansas State a year and a half ago and became 
familiar with some of these issues that I was familiar with 
from a different perspective when I was still in uniform. I 
think part of it is just the intelligence piece, and that is 
why I mentioned the intelligence piece. If we do not know there 
is a threat out there, then we tend to dismiss it. But there is 
no threat, so what are we worried about?
    I do not think we are--some of the things that we discover 
at the Kansas Intelligence Fusion Center are things that the 
national intelligence folks say, ``Ah, look, that is really 
good stuff. We did not see that.'' That has happened more than 
once. We have had the former Secretary of Homeland Security out 
there who was sort of amazed by what you can do with a 
relatively small group of national or subject matter experts, 
scientists, researchers, that when they put their minds to it 
and they look at all the intelligence at the top-secret level, 
SCI level, they can find things there that others, if they are 
not looking for them, will never find. So I think that is one. 
I think the intelligence has to be there, and then you get 
people's attention.
    Two, not to put too fine a point on it, but the Washington 
Post article on the North Korean work with pathogens, if you 
are uninformed--everybody in this room would understand it, but 
if you are uninformed, you would say, ``Well, that is North 
Korea. That is not a worry.'' Well, it is a worry because they 
proliferate. They proliferated fissile material. They can 
proliferate a lot of things and missile technology and that 
sort of thing. So pathogens, if they can get some hard cash for 
that or get some return, they will proliferate that. That is 
not good for us to have somebody that is working that.
    So these are important issues that we need to--but I think 
it all starts with the intelligence, frankly. We have got to do 
a better job there.
    Senator Lieberman. Mr. Chairman, just briefly, in terms of 
public attention, next year will be the 100th anniversary of 
the influenza outbreak of 1918. They estimate that at least 50 
million and maybe as many as 100 million people died from that 
flu in 1 year globally. That was before we were traveling as 
much as we are now and before commerce was moving worldwide. So 
as you go along in this area, it may be that there will be more 
public attention on this threat because people will go back and 
look at what happened 100 years ago.
    Chairman Roberts. I thank the Senator.
    Senator Casey, if you will permit me to just reflect on 
this just a moment, I think it is extremely important to note 
the intelligence component here, and I have been to the fusion 
center on several occasions, as I know you do on a regular 
basis, General, and I appreciate that. If you asked the CIA, 
``What keeps you up at night?''--which I regularly did when I 
was Chairman of the Intelligence Committee, but also you can do 
it as Chairman of the Agriculture Committee and, for that 
matter, the Ranking Member as well, and we would certainly work 
together on that--agroterrorism does not make the top ten. But 
if you look and you have an exercise, which we did some years 
back, even before the Department of Homeland Security was 
credited, and you look at what happens if you have a foot-and-
mouth disease outbreak from South Dakota down to Texas--that 
was the primary entry point--every Governor stopped the 
movement of livestock, but it was too late, and we lost 
thousands and thousands of head of cattle.
    Now, that is bad enough, and it is very difficult to try to 
terminate all of those animals. But all of our exports stopped, 
boom, just like that. About the mad cow situation and any other 
frightful thing that would happen to a nation's food supply. 
People panicked. They finally understood that our food does not 
come from grocery stores. But they were in the grocery stores, 
and, boy, everybody bought up everything they possibly could.
    This did not last just 1 year. This was about a 3-year shot 
to even get back to the basics. You basically see a situation 
where you are destroying the Nation's food supply, and the 
utter chaos that happens as a result with regards to our entire 
economic picture.
    So I think probably another exercise like that just to 
alert people as to what is going on would be very helpful, and 
thank you for trying to focus on this. It has been a big-time 
concern for me, obviously, for many, many years, and, Senator 
Lieberman, I do want to thank you for alerting me to the Blue 
Ribbon Panel. Basically you said, ``Will you have a hearing?'' 
I said, ``You bet.'' So I appreciate that very much.
    Senator Casey?
    Senator Casey. Mr. Chairman, thanks very much for having 
the hearing and for this great panel. I apologize. We are 
juggling between hearings. I am on the Health, Education, 
Labor, and Pensions Committee. We are doing a hearing today on 
the broader issue of mental health, and a lot to work on there 
as well. So I am sorry I missed some of your testimony.
    I wanted to start with an analogy or comparison between the 
subject of this hearing and the great work that each of you 
have done and continue to do for your country, and the work 
that another part of the HELP Committee has been focused on for 
a number of years. Senator Burr and I have been working on the 
so-called PAHPA reauthorization, Pandemic All-Hazards 
Preparedness, so all of the issues that encompass the focus on 
the security to human health with regard to chemical, 
biological, radiological, and nuclear threats. As each of the 
panelists in one way or another today have said, this HELP 
legislation we are working on and the pandemic hazards fits 
under Homeland Security Presidential Directive 10, which is 
technically separate from the defense of agriculture, which is 
the Presidential Directive 9. But as your report says, the Blue 
Ribbon report details, so many of the threats to humans are so-
called zoonotic, meaning they can move between animals and 
humans, so it is appropriate that the Committee is looking at 
agrodefense.
    I want to direct this question to both Senator Lieberman as 
well as Dr. Meckes about both the authorization and funding of 
the so-called National Veterinary Stockpile, NVS. As I 
mentioned, the work we are doing in the pandemic legislation 
with Senator Burr, that particular legislation authorizes the 
Strategic National Stockpile, so-called SNS, as opposed to the 
National Veterinary Stockpile, NVS.
    As you might know, the Strategic Stockpile is the human 
counterpart to the National Veterinary Stockpile, and I guess 
the first thing I wanted to ask both you, Doctor, as well as 
Senator Lieberman, and certainly, General and Dr. 
Hammerschmidt, you can weigh in on this. Can you compare the 
two? I guess in particular, I would present this question: If 
you had a threat to avian influenza emerging in the U.S. today, 
just by way of a hypothetical example, that threatened both 
animals as well as humans, how would the various sectors that 
deal with these issues, but especially these stockpiles, work 
together to mitigate that threat? I know it is kind of a broad 
question, but do you have any sense of that?
    Senator Lieberman. Dr. Meckes, go ahead. Why don't you 
start?
    Mr. Meckes. Yes. Well, obviously the most keen distinction 
between the Strategic National Stockpile and--the greatest 
distinction between the two stockpiles, National Veterinary 
Stockpile and Strategic National Stockpile, is funding: 
billions of dollars for the Strategic National Stockpile, less 
than $5 million typically for the National Veterinary 
Stockpile. Currently, most of those resources are committed to 
protective equipment for response, materials to mobilize teams 
to go to farms and do whatever is needed, whether it is 
depopulation in the event of an avian influenza or other 
activities.
    But there has been some effort over the years to integrate 
the activities of the Strategic National Stockpile and the 
National Veterinary Stockpile, but their missions are so 
totally different that, frankly, it has not been very 
successful.
    Then the other piece, as we mentioned, of the foot-and-
mouth disease vaccine, we have that antigen stored for 12 or 13 
different types and subtypes. As I mentioned, it is shared 
between Mexico, Canada, and the U.S. in that North American 
bank. So, again, a very small investment in vaccine for foot-
and-mouth disease. I mentioned 9 million pigs east of I-95, 
millions of cattle in Kansas and throughout the Midwest, sheep 
and goats, dairy cows in California. How will the decision be 
made to distribute 2.5 million doses of vaccine when we have 
got 90 million head of cattle and 60 million swine in the 
country? Difficult proposition.
    Senator Casey. Thank you.
    Senator Lieberman. Senator, I will just add that we think 
this is an important area because the National Veterinary 
Stockpile was created pursuant to Homeland Security 
Presidential Directive 9, and it has never been funded. 
Actually, that directive created some, I think, important 
requirements, which can never be fulfilled because it has not 
been funded, which is that within 24 hours of an event, the 
outbreak of something, which hopefully we would find out about 
because we have adequate intelligence, surveillance, reporting, 
we have to be prepared to act to get medical countermeasures 
out there and vaccines, and there is no way--I mean, this gets 
us, as Dr. Meckes said, just a little over $4 million a year. 
You just cannot do it.
    So it would be a real sign of a recognition that something 
is needed here--and, again, avian influenza, the foot-and-mouth 
is separate, has some funding. It would show that this is not 
fantasy, that this is real. But at least for Congress to take 
the step of authorizing the Veterinary Stockpile, to put it in 
a law is a first step. I understand all the competition for 
funding and the rest, but however high, once it is authorized, 
before it can go, it should be easy to put more than $4 million 
in, because when there is an outbreak, boy, people are going to 
be screaming for vaccines or other medical countermeasures to 
stop the spread. There is nothing there right now. It is empty, 
effectively. So, please, make it real and fill it up.
    Senator Casey. Thank you.
    General or Doctor? I know I am over.
    General Myers. I have just got two short comments.
    One is when you have two HSPDs, 9 and 10, one for people 
and one for threats to agriculture, right there you have 
problems because they both concern living things, whether 
plant, animals, or people. I think because we have two and 
because some protect things better than the other one might in 
agriculture, we do not have a good focus in the executive side 
of Government. From a policy standpoint, I think that is 
problematic.
    Then, second, I was reminded by Dr. Trewyn that pandemic 
threats essentially are all zoonotic. They usually start in 
animals. So focusing on an effort to stop the disease in 
animals is the way you stop from losing 50 to 100 million or 
who knows how many today, and there is little effort to do 
that. So they are not separate. They are together.
    Senator Casey. Just one comment. Appropriations are always, 
as Senator Lieberman said, an area of--I am putting words in 
his mouth, but it is a lot of competition for dollars, 
obviously.
    Chairman Roberts is focused on this issue, and his standing 
as a Chairman means that he will have on most days more 
persuasive powers than some of the rest of us. I might even 
argue, though, that this panel might have even greater 
persuasive powers with the appropriators, even greater powers 
than Senator Roberts.
    [Laughter.]
    Senator Casey. I just got myself in real trouble. But I 
would just urge you to keep making that point because we can 
write letters to the appropriators, we can buttonhole them and 
talk to them about it, and all that is discharging our duty. 
But your voices on this will be more powerful, and it should 
not just be a few million.
    Thank you.
    Chairman Roberts. Thank you, Senator.
    Senator Daines?
    Senator Daines. Thank you, Chairman Roberts, Ranking Member 
Stabenow. Thank you to this very distinguished panel today. 
Thanks for spending the time here with us.
    Everyone knows that protecting the integrity and security 
of our food and ag infrastructure is of the utmost importance. 
It is important to a guy like me from a State like Montana, 
where it is our number one industry.
    As we look at the face of threats to agriculture and human 
health, I applaud your insights, your testimony, and the 
ability to discuss this. Assets towards this end across the 
Federal Government, including the Rocky Mountain Research Lab, 
a little-known research lab perhaps nationally but well known 
within those who engage in this fight every day--it is a state-
of-the-art facility, a biomedical research facility in 
Hamilton, Montana, just south of Missoula. In fact, a 
fascinating history dating back to 1928 when research went out 
looking for the cause of the Rocky Mountain spotted fever, and 
that was the genesis of this laboratory. They have played a 
critical role in protecting our Nation from fighting zoonotic 
diseases to conducting essential research on the Ebola vaccine 
as well.
    I know the Chairman asked a really great question: What 
keeps you up at night? That is always a good question for a 
panel like this. To build on that, I will start with General 
Myers. First, I want to thank you for your service to our 
Nation. In your view, what do you see as the greatest threats 
and the vulnerabilities to our ag infrastructure and food 
systems that terrorists or bad actors might exploit?
    General Myers. I think when it comes to our critical 
agriculture infrastructure, it is exactly that. If somebody 
wanted to--it is bad enough dealing with the naturally 
occurring pathogens. It is another thing if it were to be 
deliberate. What is interesting to me, dealing with groups like 
al Qaeda and ISIS and others when I was still in uniform, is 
that here you could wreak havoc on our agriculture 
infrastructure, and you could be continents away before the 
consequences were known or felt. So an ease with which it is 
the ability to infect with pathogens either plants or animals.
    Wheat blast was introduced in Bangladesh I think last year 
and the year before, 2 years in a row--maybe it was this year--
it was 2017, I guess--through a shipping container, 
inadvertently I think people think. So that is a fungus, as I 
understand, that you could transmit other ways. There is no--
you could probably easily bring it into any country and infect 
crops. Once it gets started, it goes pretty fast.
    Foot-and-mouth disease, which we all fear for many reasons, 
is easy to transport. It is not detectable necessarily, and the 
pathogen can last for a long time without any special care. 
Then you just drive around any of our big ag States and look at 
our ag infrastructure and production facilities, they are not 
well protected. So it is easy to introduce.
    So I guess what keeps me up at night is somebody seizing on 
some of this and trying to hurt our economy. In the State of 
Kansas, agriculture is over 40 percent of the economy. That is 
just the ag piece. That is not the retail and the restaurants 
and all the rest of the food chain. it is just pure ag. Some of 
the other States, in Montana it is obviously pretty a serious 
business.
    Senator Daines. Yeah, number one.
    General Myers. Number one, so this is important stuff. If 
you take the economy down, you create--agroterrorism, bio-
agroterrorism would do the same thing that terrorists today try 
to do, which is create fear in people's minds, which gives them 
less confidence in their government and their political 
processes. It could have devastating effects. You could just go 
right down the list of things that we worried about right after 
9/11.
    Senator Daines. So what mechanism or tool, General, a 
follow-up question, is the USDA or the Federal Government most 
lacking in order to be able to effectively gather intelligence 
or mitigate the risk of potential foreign animal diseases in 
advance of the new biodefense facility that is coming online in 
Kansas?
    General Myers. Well, there are several. I think first is 
just the intelligence piece of it, knowing what is out there, 
knowing what is likely to come this way, having people focused 
on that that have the knowledge about these pathogens, about 
agriculture, that they can identify the threat before it gets 
there. We would like to stop these threats before they come 
inside our boundaries, and our friends' and allies' as well. So 
like I have mentioned earlier, I think it all starts with 
intelligence. We do not have the number of subject matter 
experts with the right clearances at the right places to focus 
on this. But as the Chairman said, the intel agencies, this is 
not something that keeps them up at night. I think if we had 
the right number of analysts with the expertise like my two 
colleagues here have, properly cleared, that they could 
identify these well before they came to the United States, or 
at least get us ready for that particular threat. So I think it 
starts there. So that is kind of left of the event.
    Right of the event, we have got to have the things that 
were talked about here, which is the research that is going on 
to try to find vaccines or other ways to deal with the 
pathogens, and that is kind of a sporadic effort, as we have 
heard, I think. Maybe ``sporadic'' is too--no, that is about 
right--a sporadic effort to deal with those. So it is across 
the board. I think HSPD-9 is a pretty good road map, but there 
are not statutes that back it up, and I would opine and offer 
that it is my belief we need statutes to back up HSPD-9 and 
then hold people accountable when you give them funding for 
certain things, hold them accountable for the output.
    Senator Daines. Thank you. I am out of time here, but I 
will just conclude with one statement. We are looking at the 
possible--the risk here to the food supply and the safety of it 
and what that might mean to our Nation. But, arguably, even a 
very small incident could have just significant implications 
for the global food supply chain directly affecting our farmers 
and ranchers. We date back to one mad cow disease hit, most 
likely from outside our country, but we were associated with it 
and it banned beef exports for 14 years in China as an example. 
So, again, it is the economic risk to the ag industry in this 
country that concerns so many of us for what was a very, very 
small incident.
    General Myers. Senator, I would say my two colleagues here 
to the left, maybe it is not the correct analogy, but we have 
got our finger in the dike. As things break out, we deal with 
them. Up to now most of them I think we think are naturally 
occurring, although some of them have been suspicious, but 
naturally occurring. They have stayed ahead of it thanks to 
their research, thanks to their medical knowledge, and their 
work in this field. It is thanks to people like that, that have 
kept it where it is. But intentional would be a whole different 
ball game. You would have to assume that would be a much more 
dangerous game.
    Senator Daines. Thank you.
    Chairman Roberts. Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman. I apologize for 
being late. We had an Air Force fellow that graduated today, 
and so we were over celebrating that very quickly, and just----
    Chairman Roberts. I know General Myers will be most 
appreciative of that.
    Senator Boozman. Well, I think all of us are most 
appreciative. That is a big deal for this young lady.
    So I thank all of you all for being here. We really do 
appreciate your insight. Certainly, the security of our food 
and fiber is so very important.
    I know that many of you have expressed concern regarding 
proposed funding reductions for the research activities. I want 
to let you know that as DHS Appropriations Subcommittee Chair, 
we fully funded all of these line items in Fiscal Year 2018. 
Now, we are going to work hard to keep that together, but right 
now they are in the Senate bill as we go forward. So, again, we 
do appreciate the fact, though, that you are concerned about it 
and have voiced the importance of it. That helps us in securing 
those funds. So thank you very much for that.
    Dr. Meckes, North Carolina has led the way with the 
creation of the Emergency Programs Division within the State's 
Agriculture Department to safeguard our food and fiber supply. 
It really will take an all-of-the-above approach, Federal, 
State, local, private levels. In your opinion, what role can 
States play in this very important mission? Additionally, how 
do you think DHS and other Federal agencies could best 
coordinate across State lines to work with State agencies such 
as yours in North Carolina?
    Mr. Meckes. Well, I will say that in the early days of the 
creation of the Emergency Programs Division, DHS was integral 
to the funding of that effort, and I mentioned $7 million of 
DHS funds from USDA grants actually helped us create that 
program. As it has come to fruition, it is recognized at the 
Federal level we have got a close working relationship with 
USDA not only at the State level with our assistant district 
directors but at the national level as well.
    In 2015, when Minnesota broke with avian influenza in the 
largest turkey farm in the world, they picked up the phone and 
called North Carolina and asked us to come and help them 
depopulate birds. This is certainly not anything that I have 
done. This all precedes me. But it is a remarkable asset for a 
State.
    We deployed to Texas. After the hurricanes, we deployed to 
Puerto Rico and the U.S. Virgin Islands in the last 3 months to 
assist them in animal agriculture. We worked closely with FEMA 
in anticipation of Hurricane Matthew's arrival to the State of 
North Carolina in 2016, and for the first time ever, we were 
able to secure funds to purchase carbon source to compost all 
of the birds that died during the flooding in North Carolina.
    So the marks on the wall by our Emergency Programs 
Division, we are well recognized and respected throughout our 
State colleagues and by the feds, and that success brings more 
success, and that is where we are with this effort.
    Senator Boozman. Good story to tell.
    Mr. Meckes. Yes, it is.
    Senator Boozman. Senator Lieberman, it is so good to have 
you around.
    Senator Lieberman. Thanks, Senator Boozman.
    Senator Boozman. We miss you.
    Senator Lieberman. Great to see you.
    Senator Boozman. As you noted in your testimony, much of 
the critical infrastructure in ag is privately owned. Could you 
elaborate on some of the challenges that presents?
    Senator Lieberman. I would be happy to. I have thought 
about that in the question that Senator Daines asked General 
Myers.
    Part of the problem there has been--and this goes to early 
warning and intelligence--how do you stop an outbreak, of 
either a bioterrorist attack or naturally occurring, from 
spreading, and there is a natural tendency--it is not just in 
agriculture, of course. It is in other areas of human 
activity--for the private sector--this happened particularly in 
cybersecurity over the years--where a company, an agricultural 
company, a farm, an individual farm, do not want to report the 
problem because they fear creating a panic that will affect 
business. That is just--you cannot do that because they have 
got to report early, and that is the way to stop it and really 
secure the agricultural sector of our economy. So that is one 
thing I think of.
    I think the reality of this threat to agricultural security 
has quite naturally now hit the people in the industry more 
than people outside, and I think there is a growing cooperation 
going on, so that is good news.
    Senator Boozman. Very good.
    General Myers and Dr. Hammerschmidt, in your testimony you 
both line out roles that you think the land-grant universities 
could play in ensuring food security. Could you elaborate on 
this? Specifically, how can the Federal Government better 
partner with the agricultural universities?
    Mr. Hammerschmidt. I think I will start, being the only 
sort of non-animal person up here.
    [Laughter.]
    Mr. Hammerschmidt. Although I think humans are still 
animals.
    One of the things which obviously the Federal Government 
has been helping us with are the diagnostic networks funded 
through the USDA, NIFA, FADI line, and this has been, from the 
plant side, one of the best investments that has been made in 
plant disease and pest diagnostics over the last 15 years.
    Like many other things, the funding has declined 
dramatically, so in my region, as in other region such as the 
region directed by Dr. Jim Stack that General Myers' university 
heads up, we are down to little more than half a million a year 
per region to support the States around us. But having this 
kind of support still enables us to enhance our detection and 
diagnostic techniques. We also have invested in the past and we 
would like to do more training of what we call ``first 
detectors.'' These are individuals, whether they are extension 
agents, crop consultants, master gardeners, the general public, 
anyone who comes into contact with plants would be able to 
recognize when something unusual is happening and know where to 
send a sample. We are not looking broadly enough for pest and 
pathogens, and this shows a need for awareness training. This 
is part, I think, of the issues that we have of the public not 
really being very appreciative of some of these problems that 
we face. These are programs which can generate a great deal of 
benefit in early detection of pests and diseases.
    When I think about acreages of wheat, for example, in 
Kansas, which is far more extensive than in Michigan, although 
we do have a little bit, scouting or surveillance of those 
fields is very difficult by an individual. But we have better 
potential technologies now. Can we use drones, for example? Can 
we use volatile organic chemistries which are emitted by 
certain pest-plant pathogen interactions to detect these events 
It does not remove the need for people to get out there to take 
samples, but it could enable us to find these diseases or pests 
much more quickly.
    The other area which really I am quite concerned about--and 
this really is an issue that faces both animal and human 
health--is the occurrence and development of more and more 
resistance to the chemistries we rely on for plant pathogen and 
insect control. As the chemicals have become much more specific 
and much more environmentally safe, they are actually much more 
readily, easily overcome by the pathogens by mutations. Couple 
that with what I think is not speedy enough breeding for host 
resistance to both pests and pathogens, we have sort of this 
double-edged sword working at us.
    General Myers mentioned the outbreak of wheat blast in 
Bangladesh, and part of that in part may be due to the fact 
that the wheat lines there were not resistant to this pathogen.
    I would contend that because of the openness of our 
research, both in the United States and other parts of the 
world, that folks know what varieties of crops are being 
planted, what their vulnerabilities are, what they are 
resistant to, what they are susceptible to, and, equally 
importantly, what pesticides they are resistant to. With the 
knowledge of which genes are being mutated to confer disease 
resistance and the ability to actually genetically modify 
microbes quite easily, you can envision a scenario that if you 
wanted to introduce a pathogen into a crop, you would first 
determine what varieties are being grown to know what the 
susceptibility is, what fungicides are being used and modify 
your organism to basically come in there and defeat the tools 
that are readily available for crop control, things you would 
not expect.
    So detection involves not only finding it, but also 
determining genotypes of the pathogens. So partnering with 
programs to ensure we have the right kind of chemistries coming 
down the pipeline, that we have disease and pest resistance 
being incorporated into our most important--or all of our crops 
is very, very important.
    Senator Boozman. Good. Thank you, Mr. Chairman.
    Senator Lieberman. Mr. Chairman, if I may, Senator Boozman, 
I apologize. There is one more thing I want to add for the 
record----
    Senator Boozman. You always may.
    Senator Lieberman. Thank you. My answer to your question 
about private industry, the agricultural industry. The 
Department of Agriculture I gather is in the final stages and 
close to issuing a rule on reportable animal disease, and that 
hopefully will clarify the responsibility of the private sector 
here to report quickly to avoid the spread of disease among 
animals and to create a certain incentive to do that because 
that information is critically important.
    Thank you.
    Senator Boozman. Thank you.
    General Myers. Could I add a comment?
    Chairman Roberts. Sure.
    General Myers. Thank you, Mr. Chairman. I agree completely 
that I think the land-grant universities are particularly well 
positioned with their research and extension efforts to help 
with the private sector outreach that you covered so well, so I 
will not go into that. But that is part of what they do, and 
sometimes it comes down to funding, of course. That is 
something to consider.
    Plus as I mentioned in my testimony, we are going to have a 
gap with certain diseases that are going to be covered 
eventually by the National Bio and Agro-Defense Facility, but 
in the meantime are being handled by the BRI/Pat Roberts Hall 
there at K-State, that State funding runs out in 2019, so we 
are going to have a 3-or 4-or 5-year gap before that picks up 
at NBAF. Somebody ought to be doing that, or we are going to 
have a gap in research.
    Then, third, just to answer your question, it is research 
that is the key here, and so the work that Dr. Hammerschmidt 
does, the work that is done at many of our land-grant 
institutions is really critical to this, and I think we could 
target funding for specific research that would really move us 
forward.
    Senator Boozman. Very good. Thank you, sir.
    General Myers. Thank you.
    Chairman Roberts. Thank you, Senator. Thank you to all of 
the witnesses. In making notes here, I would note the 
resistance on the part of Senators and Members of Congress to 
fully appreciate what we are facing here with the lack of 
awareness.
    This is a difficult issue because if you really come out 
and say what is on your mind, you scare the dickens out of 
people. I remember when I first became interested in this by 
the circumstance of that trip to Russia, and then the follow-up 
with President Wefald at K-State, I kept telling our various 
farm organizations and our commodity groups we have got to step 
up on this, our veterinarians, everybody else. They said, 
``Will, you quit talking about this because nobody wants to 
talk about this. It is affecting prices if the Chairman of the 
Ag Committee comes out and says we are about to face something 
very dreadful.'' Mainly because a former Senator and a dear 
friend of mine came and said that Kim Jong-un has pathogens 
now, so look out. Well, we should look out.
    So I can promise you that every member of this Committee is 
aware of this threat, and it is true that with regards to--I 
just made notes: lack of vaccines, lack of coordination, lack 
of response capability, obviously lack of funding, and lack of 
awareness and lack of intelligence capability, and lack of 
building out HSPD-9 to where the full intent was. Other than 
that, we are in pretty good shape.
    [Laughter.]
    Chairman Roberts. We do have awareness, these things are 
set in place. They were not set in place 10, 15 years ago. We 
have good people working on them, and I want to thank 
everybody, especially the Panel, for being certainly on point--
quite a few times, as a matter of fact, as I recall here, with 
regards to the timing.
    So thank you for your testimony, and to my fellow members, 
we would ask that any additional questions you may have for the 
record be submitted to the Committee clerk 5 business days from 
today or by 5:00 p.m. next Wednesday, December 20th.
    The Committee stands adjourned.
    Senator Lieberman. Thank you.
    [Whereupon, at 11:15 a.m., the Committee was adjourned.]

      
=======================================================================


                            A P P E N D I X

                           DECEMBER 13, 2017

      
=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           DECEMBER 13, 2017

      
=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


      
=======================================================================


                         QUESTIONS AND ANSWERS

                           DECEMBER 13, 2017

      
=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
